         Federal Housing Finance Agency
             Office of Inspector General




FHFA’s Implementation of Active
          Directory




Audit Report  AUD-2014-007  January 31, 2014
OIG issued the subject report on January 31, 2014.


AUDIT OBJECTIVE: The objective of this performance audit was to determine whether FHFA
has implemented an Active Directory security infrastructure that effectively protects the
confidentiality, integrity, and availability of critical systems and information.


Because information in this report could be abused to circumvent FHFA’s internal controls, it
has not been released publicly.
